                                                 U.S. DEPARTMENT OF
                             HOUSING AND URBAN DEVELOPMENT
                                         OFFICE OF INSPECTOR GENERAL



                                             February 13, 2013


                                                                        MEMORANDUM NO: 2013-IE-0802
Memorandum
TO:           Karen Newton Cole, Acting Chief Human Capital Officer, Office of the Chief
              Human Capital Officer, A


               //signed//
FROM:          Donna M. Hawkins, Acting Director, Inspections and Evaluations Division,
               Office of Audit, GAH

SUBJECT:       Evaluation of HUD’s Toll Free Telephone Lines


                                            INTRODUCTION

In response to a request by the Office of Inspector General’s (OIG) Office of Investigation, we
conducted an evaluation of the U.S. Department of Housing and Urban Development’s (HUD)
toll free phone lines. Our objective was to determine whether HUD’s phone lines were
functioning at optimal levels with regard to phone line operations and the level of customer
service provided to the public.

Our review disclosed that HUD could not determine (1) whether its toll free phone lines were
functioning at an optimal level and (2) the level of service provided to its customers. Although it
was not the focus of our review, we also identified numbers that were either disconnected or not
HUD numbers that were advertised on HUD’s Web site. We also noted inconsistencies with
HUD’s toll free inventory maintained by the Office of the Chief Human Capital Officer
(OCHCO).

As a result, we recommend that OCHCO develop departmental policies and procedures for toll
free phone line operations, standards, and expectations for customer service and a mechanism for
obtaining customer feedback. We also recommend that OCHCO ensure (1) the accuracy of toll
free phone numbers posted on HUD’s Web site and (2) that its internal inventory of phone
numbers is complete and accurate.

For each recommendation without a management decision, please respond and provide status
reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us copies of any
correspondence or directives issued because of this review.

                                Office of Audit, Inspections and Evaluations Division
                                 451 7th Street SW., Room 8170, Washington, DC 20410
                                       Phone (202) 402-8482, Fax (202) 401-2488
                           Visit the Office of Inspector General Web site at www.hudoig.gov.
                               METHODOLOGY AND SCOPE

Our evaluation was conducted in Washington, DC, between November 2011 and May 2012. We
reviewed applicable contracts, monthly reports, and toll free line inventories and statistics, and
conducted Internet research. We also interviewed pertinent OCHCO, Office of Public and
Indian Housing (PIH), Office of Fair Housing and Equal Opportunity (FHEO), Office of
Community Planning and Development (CPD), and Office of Housing staff and called a selected
number of advertised toll free lines. Our evaluation did not include determining whether the
information provided by the call centers was accurate. The evaluation period covered HUD’s
toll free line inventory levels for fiscal years 2010 and 2011.

From a listing of 27 toll free lines obtained from hud.gov, we selected one toll free number from
HUD’s major program areas. Specifically, we selected the following six telephone lines for our
review:

 Program
              Toll free line                        Purpose                      800 number
  office
                                Provides information to Federal Housing
             FHA Resource
  Housing                       Administration (FHA) consumers and              (800) 225-5342
                Center
                                industry partners
                 HUD            Disseminates information and materials about
  OCHCO        Directives       Federal fair housing laws and HUD fair          (800) 767-7468
             Ordering Desk      housing programs and initiatives
                                Assists local residents, resident councils,
                                nonprofit organizations, public housing
               Multifamily
                                agencies, and regional HUD offices on issues
  Housing        Housing                                                        (800) 685-8470
                                such as resident rights and programs for the
              Clearinghouse
                                elderly and disabled and distributes
                                application packets for these programs
                                Provides information for callers about fair
                Housing
                                housing rights and records consumer
   FHEO      Discrimination                                                     (800) 669-9777
                                complaints of unfair treatment or
                Hotline
                                discrimination
                                Serves as a clearinghouse for HUD’s CPD
               Community
    CPD                         programs on the national level for consumers,   (800) 998-9999
               Connections
                                researchers, and local policy makers
             PIH Customer       Serves as a central source of information for
    PIH                                                                         (800) 955-2232
             Service Center     all programs operated by PIH

We conducted the evaluation in accordance with the Quality Standards for Inspections issued by
the Council of the Inspectors General on Integrity and Efficiency.




                                                2
                                             BACKGROUND

OCHCO is responsible for developing and implementing policies and procedures associated with
human capital and administrative management for HUD. In addition, it advises the HUD
Secretary and senior management on administrative and human resource matters.

OCHCO’s Office of Facilities Management Services provides support services to the field and
headquarters, including but not limited to the development and issuance of departmental
administrative services policy and the management of building operations, headquarters
transportation services, parking, mail distribution, telecommunications, and records. Within the
Facilities Management Services Office, the Telecommunication Branch is responsible for
administering and managing toll free line operations. Specifically, it is responsible for initiating
phone service operation.

Phone Line Initiation

To establish a toll free number, a program office sends a request to the OCHCO Assistant
Secretary for approval. The request will describe the purpose and intended use of the toll free
line. If the office would like a vanity phone number 1 (e.g., 1 800 FHA INFO), the requesting
office must indicate the proposed toll free number. Once the request is approved, OCHCO
submits the information to the phone line carrier, currently AT&T, for processing. AT&T then
has 30 days to process the request. Once AT&T has set up the 1-800 number, the program office
notifies OCHCO of the land telephone number to associate with the 1-800 number. The program
office also provides OCHCO with the recorded message each caller will hear when a toll free
number is dialed.

However, if the phone line requires special features that are not offered by AT&T, HUD turns
the 1-800 number over to a carrier that offers the required special features. The program office
selects a carrier that best meets its needs. Since HUD still owns this phone number, when the
contract with the carrier ends, the number is returned to HUD.

Once the phone line setup is complete, the program office is responsible for its operation.
OCHCO maintains an inventory of HUD’s toll free lines but tracks only the number of calls and
the usage amounts of phone lines operated by HUD’s service provider. OCHCO does not
monitor the phone lines to ensure that phone line objectives are met. Instead, each program
office is responsible for monitoring its phone line operations.

HUD Toll Free Inventory

HUD’s fiscal year 2010 toll free inventory report indicated that there were 103 toll free numbers
that received more than 1.1 million incoming calls with a usage cost of $89,915. In fiscal year
2011, the inventory report showed 89 telephone lines that received more than 2.8 million
incoming calls with a usage cost of $162,302. The inventories included numbers such as

1
 The Federal Communications Commission defines a “vanity” number as a toll free telephone number that spells a
person’s or company’s name or spells a word or acronym chosen by the subscriber.

                                                       3
employee help desk, spare, 2 Telecommunications Device for the Deaf, Teletypewriter, and fax
lines. The table below shows the specific HUD offices and the number of toll free lines that
were operational during fiscal years 2010 and 2011.



                                       Program office                          Number of toll
                                                                                 free lines
                                                                               2010      2011
                     OCHCO                                                        31        18
                     Office of the Chief Financial Officer                         2         2
                     CPD                                                           3         3
                     FHEO                                                         18        19
                     Office of Field Policy and Management                         3         3
                     Office of Housing                                            28        27
                     Office of the Chief Information Officer                       4         3
                     OIG                                                           3         3
                     Office of Policy Development and Research                     3         3
                     PIH                                                           7         7
                     Real Estate Assessment Center                                 1         1
                     Totals                                                      103        89

HUD Customer Care, Business Process Improvement Study, 2003

In 2003, HUD completed a business process improvement study of HUD’s toll free customer
service lines. The study was conducted by HUD’s Business Process Improvement Team with
the purpose of providing an objective and subjective analysis of the state of customer care at
HUD, as it relates to caller routing and enterprise reporting. HUD customers are citizens,
housing industry representatives, and stakeholders who are seeking (1) general HUD
information, (2) specific personal information about themselves or their clients, or (3) complex
information that requires the assistance of a HUD specialist. This 2003 study found that HUD
was challenged in its ability to effectively manage its customer service processes as an agency.
The study identified the following as opportunities for improving the overall picture:

      •    Create standards for customer service to provide program areas with expectations.
      •    Work with program areas to define key performance indicators and monitor them.
      •    Analyze performance at the departmental level.
      •    Provide an infrastructure to support call routing and reporting.
      •    Demonstrate a dedication to customer service.




2
    Spare lines were telephone lines that were maintained by HUD but not in use.

                                                           4
                                           RESULTS OF REVIEW

Our review disclosed that HUD could not determine whether its toll free phone lines functioned
at optimal levels. Additionally, HUD could not determine the level of service provided to its
customers. This occurred because HUD did not have (1) policies and procedures specific to the
operation of toll free phone lines, (2) consistent operational goals for its phone lines, and (3)
mechanism in place to track customer service. As a result, HUD could not be assured that its
toll free numbers as a whole, were operating as intended and met customer expectations.

I. Phone Line Operations

HUD could not determine whether its toll free phone lines functioned at optimal level.
Although the phone lines were initiated within OCHCO, they were monitored by each individual
program office and, therefore, handled differently.

HUD did not have policies and procedures specific to toll free phone line operations. However,
HUD Handbook 2241.1, REV-1, Telecommunication Management, which was issued in August
1983, acts as an easy reference manual for employees. This handbook provides
telecommunication policy and procedures governing the management, use, and acquisition of
telecommunications services and facilities for HUD. While, the handbook discusses the internal
procedures for phone line setup, it does not address how toll free lines will be managed and
operated. Essentially, OCHCO’s role ends after the lines are set up for use. At that point, the
program office is responsible for managing and monitoring phone line performance.

For four of the six phone lines reviewed, requirements were included in the contract as tasks
instead of policies and procedures. 3 The contractors were evaluated based on their ability to
satisfy contract performance standards and measurements. One CPD official explained that
HUD informed the contractor of what tasks needed to be performed but did not instruct it on how
to complete the task. As shown in the chart below, the contract performance measures varied
among the phone lines reviewed.



                 Phone line                                    Performance measures
          FHA Resource Center                     Telephone inquiries should be answered within
                                                  20 seconds, and voicemail should be responded
                                                  to within 1 business day.
          Community Connections                   Calls are answered within 2 minutes of being
                                                  received.
          Multifamily Clearinghouse               Calls are answered within 3 minutes.
          PIH Resource Center                     Information requests, including referrals to
                                                  other sources, should be responded to no later
                                                  than 2 business days after receipt.

3
 Of the six phone lines reviewed, five of the toll free lines were operated by contractors. The remaining line,
Housing Discrimination Hotline, was operated by HUD employees.

                                                          5
The fifth phone line, the HUD Ordering Directives Desk telephone line, is also staffed by a
contractor. However, the contractor requirements are included in its Order Entry Operations
manual. This manual includes instructions for the telephone greeting. It also explains how to
process customer orders and the various order delivery methods. Beyond handling the calls, the
only requirements noted were that calls on hold in excess of 4 minutes would prompt a beep on
the telephone line and that all stocked items were to be mailed within 48 business hours.

The remaining phone line, FHEO’s Housing Discrimination Hotline, is operated by HUD
employees, referred to as equal opportunity specialists. Each FHEO regional office specialist
follows the Title VIII Complaint Intake, Investigation, and Conciliation Handbook. 4 This
handbook discusses the types of discrimination covered by the Fair Housing Act, how to collect
and review complaint information, and when an allegation is considered a Fair Housing Act
complaint. In regard to allegations received by telephone, the specialist is instructed to collect
the allegation information and read it back to complainant, enter the information into the Title
Eight Automated Paperless Office Tracking System (referred to as TEAPOTS), and process the
housing discrimination complaint form. Ultimately, the complaint form is mailed to the
complainant, who must return the original signed form to HUD within 10 days.

While our review of the monthly reports did not determine that the performance measures had
not been met, by having inconsistent goals, HUD could not be assured that its toll free numbers
as a whole were operating as intended. Further, HUD could not analyze its phone line
performances at a program level.

Calls Referred to OIG

During the course of our review, we asked responsible officials under what circumstance a caller
would be referred to OIG. Officials stated that phone calls would be referred to OIG if the caller
alleged fraud, waste, or abuse. The Multifamily Clearinghouse was the only phone line to
include the number of calls referred to OIG in its monthly reports. During our period of review
(fiscal years 2010 and 2011), of the 71,008 calls answered by the Clearinghouse, 175 calls were
referred to OIG.

II. Customer Service

HUD could not determine the level of service provided to its customers. Specifically, none of
the six telephone lines had a mechanism in place to track customer service. For the most part,
the telephone lines relied on optional customer feedback in lieu of using a customer service
survey.

Our review found that complaints and commendations were logged if a customer chose to leave
comments or called back with his or her concerns or praises. However, the toll free lines were
not set up to conduct customer service surveys at the end of each call.



4
    HUD Handbook 8024.1, REV-2, issued May 11, 2005

                                                      6
Before our review scope, the FHA Resource Center used a customer service survey. Use of the
survey was discontinued in 2009, due to it being a census year. According to a Housing
employee, surveys cannot be used during a census year. Housing intends to resume use of the
survey once it is approved by the Office of Management and Budget. 5

By not having a mechanism in place to formally obtain customer feedback, HUD could not be
assured that its toll free lines met customer expectations.

III. Other Matters

Although it was not the focus of our review, we identified numbers advertised on hud.gov that
were either disconnected or not a HUD number as indicated. We also identified HUD toll free
lines that were not included in HUD’s inventory of toll free lines.

Upon conducting Internet searches using the key words “HUD Hotlines” or “HUD Toll Free,”
we were directed to a listing entitled “HUD Toll-Free Hotlines.” The list contains 16 toll free
phone numbers for various HUD help lines. When we called these phone numbers, we found
that the number listed as the “Asset Management Help Line” was not in service. Additionally,
the number identified as the “FHA Mortgage Refund Call Center” is a Federal Emergency
Management Agency emergency telephone number, not a HUD number.

In addition, during the course of our review, we noted inconsistencies with OCHCO’s inventory
of toll free numbers. Of the 27 toll free lines that were advertised on hud.gov through “Contact
Us,” we identified two phone lines that were not included on HUD’s 2011 inventory. 6
Additionally, the Office of Housing identified another seven toll free lines that were not included
on the inventory. According to OCHCO, these omitted phone lines were HUD numbers that
were being serviced by an outside telephone carrier. However, since there were other telephone
lines that were operated by outside carriers on the inventory, these nine lines should not have
been excluded. These exclusions and inconsistent record keeping limited our ability to rely on
the inventory information.

On January 26, 2004, HUD officials were briefed on the HUD Customer Care Business Process
Improvement Study, R-DEN-01730, and provided a summary of the findings from this study.
During our review, 8 years after HUD had completed its study, we found that the same
opportunities for improving HUD challenges in its customer service processes still existed.
HUD’s mission puts it in direct contact with a significant portion of its customers and, therefore,
requires HUD to effectively and efficiently manage its customer services processes.




5
  The Paperwork Reduction Act generally provides that every Federal agency must obtain approval from the Office
of Management and Budget before using identical questions to collect information from 10 or more persons.
6
  http://portal.hud.gov/hudportal/HUD?src=/contact. Each clickable category directs a person to a listing of numbers
for that category.

                                                         7
                                 RECOMMENDATIONS

We recommend that the Office of Chief Human Capital Officer

   1A.       Develop policies and procedures, which include key performance measures for
             toll free phone operations and monitoring at the departmental level.

   1B.       Create departmental standards for toll free phone line customer service and
             provide program areas with expectations.

   1C.       Develop a mechanism for obtaining customer feedback on satisfaction with toll
             free phone lines.

   1D.       Ensure the accuracy of the toll free phone numbers listed on hud.gov.

   1E.       Ensure that the toll free phone line inventory is complete and accurate and require
             each program area to certify annually regarding its inventory of toll free lines.




                                              8
         APPENDIX
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                          9
Comment 1




Comment 1




Comment 1




Comment 2




            10
Comment 2




            11
                         OIG Evaluation of Auditee Comments

Comment 1   We are encouraged by OCHCO’s agreement to implement the cited
            recommendations, which will be addressed during the audit resolution process.

Comment 2   We disagree with OCHCO’s process for ensuring that HUD maintains a complete
            and accurate toll free line inventory. Its process of only including those lines that
            are serviced by OCHCO does not reflect the total number of toll free lines that
            belong to HUD. OCHCO should, at a minimum, disseminate its toll free line
            inventory to all of HUD’s major offices in order to obtain and maintain a
            complete listing of all toll free lines.

            On November 22, 2011, we received the fiscal year 2010 inventory which
            included the numbers cited in OCHCO’s response. However, those toll free
            numbers did not appear in the fiscal year 2011 inventory.




                                             12
